, \



       Department of Health and Human 
                              Services
                         OFFICE OF

                    INSPECTOR GENERAL





          MEDICARE COVERAGE AND

       REIMBURSEMENT FOR MONITORED

             ANESTHESIA CARE





                                    " S tRVIC'S.


                                                   Richard P. Kusserow
                                                   INSPECTOR GENERAL
                              '0
                                                     JANUARY 1991
                                          ""d3a
                      OFFICE OF INSPECTOR GENERAL

The mission of the Offce of Inspector Genera (OIG), as madated by Public Law 95- 452
as amended , is to protect the integrty of the Deparent of Health and Human Services
(HHS) programs as well as the health and welfare of beneficiares served by those
programs. This statutory mission is cared out through a nationwide network of audits
investigations , and inspections conducted by three OIG operating components: the Office
of Audit Services , the Office of Investigations , and the Office of Evaluation and
Inspections. The OIG also informs the Secretary of HHS of program and management
problems , and recommends courses to correct them.

                          OFFICE OF AUDIT SERVICES
The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
caring out their respective responsibilities , and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse and
mismanagement and to promote economy and effciency throughout the Deparment.

                         OFFICE OF INVESTIGATIONS
The OIG' s Office of Investigations (01) conducts crimial , civil , and admistrative
investigations of allegations of wrngdoing in"HHS programs or to HHS beneficiares and
of unjust enrchment by providers. The investigative effons of 01 lead to crinal
convictions , admnistrative sanctions, or civil money penalties. The 01 also oversees State
Medicaid fraud control units which investigate and prosecute fraud and patient abuse in the
Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
Department , the Congress, and the public. The findings and recommendations contained in
the inspections repons generate rapid, accurate , and up- to- date information on the
efficiency, vulnerability, and effectiveness of deparmenta programs. This repon was
prepared in New York under the direction of Regional Inspector General Thomas F. Tully
and Deputy Regional Inspector General Alan Meyer. Project staff included:


New York                                    Headquarters
Joseph M. Benkoski Project Leader           W. Mark Krshat
Willam J. Counihan                          Wayne Powell
Raul K. Marynek
. "



      Deparment of Health and Human Services

              OFFICE OF

         INSPECTOR GENERAL





         MEDICARE COVERAGE AND

      REIMBURSEMENT FOR MONITORED

            ANESTHESIA CARE





                 " StRVIC'S'


                               Richard P. Kusserow
                               INSPECTOR GENERAL
            '0
                                 OEI - 02- 89- 00050
                    "Vd3a
. .                         ..................................................................................................................
                             ...........................................................................................................
                                                   ...........................................................................................
                                                        ........ .............. .................. .......... .... ........................... ..... ....
                                                                                                                                     ................ ...




                                  TABLE                                           CONTENTS

      EXECUTIVE SUMMARY

      INTRODUCTION.....................................................................................................


                 Purpose................................................................................................................ .


                 Background .... ...... .......... 


                 Scope and Methodology...................................... .............. ............ 


      FINDINGS




      RECOMMENDATIONS




      APPENDIX                                                                                                                                    A-I
                    EXECUTIVE SUMMARY

PURPOSE

This repon reviews the adequacy and implementation of Medicare s coverage and
reimbursement instrctions for monitored anesthesia care (MAC).


BACKGROUND

Modern medical technology has brought about vast improvements in surgical and other invasive
techniques. This new technology allows more procedures to be done in hospital outpatient
departments (OPDs), ambulatory surgical centers (ASCs) and doctors ' offces.

This trend and advances in anesthesia techniques, have produced changes in the nature of
anesthesia services. Traditionally, the most common form of surgical anesthesia involved the use
of anesthetic drugs which rendered the patient unconscious. Curently, many patients receive
local anesthesia during which they remain conscious. When an anesthetist takes par in the care
of a patient under local anesthesia and renders cenan specified services, the service is referred to
as " monitored anesthesia care " (MAC).

The HCFA defines MAC as the introperative monitorig of the patient s vita physiological
signs, in anticipation of the need for general anesthesia or of the development of adverse
physiological patient reaction to the surgery. It also includes a pre-anesthetic evaluation
administration of any necessar medications and provision of indicated post-operative anesthesia
care. The HCFA stipulates that MAC is not automatically covered and " must be reasonable and
medically necessar under the given circumstances.

Medicare data for 1988 shows allowed charges for all anesthesia services of $1.1 billion.
However, as claims for general or MAC ar not differentiated , the amount alowed for MAC is
not known. There are, nevenheless, indications that MAC amounts are considerable. For
example , alowed charges in 1988 for anesthesia associated with cataract surgery amounted to
$144 million , about 90% of which was probably for MAC.


SCOPE AND METHODOLOGY

To assess implementation of HCFA' s coverage instrctions, Medicare caners ' documents were
reviewed to determne the steps taen to adjudicate MAC clais. Also, Federal Employee
Health Benefit plans and the private plans of Medicare caners wereprovided with HCFA'
definition of MAC and we compared their coverage and reimbursement policies to Medicare.
Finally, physicians under contract to the OIG reviewed a random sample of 1162 medical records
to provide insights into operative events relating to the use of anesthesia services. The stratified
sample , selected for a different OIG study, consisted of an equal number of procedures
performed in OPDs and ASCs in 10 states.


FINDINGS


HCFA' s MAC Instruction Is Not Being Implemented By Carriers

Caners have not implemented HCFA' s instrctions that MAC " must be reasonable and
necessar under the given circumstances. " Most caners have not informed the medical
community of coverage limitations and have no method to distinguish MAC claims from other
anesthesia claims , a prerequisite to the coverage determnation process.


Actual Services Rendered Do Not Meet Coverage Guidelines

The results of the medical review of records do not suppon the coverage instruction premise for
MAC. General anesthesia was rarely administered and the need for anesthetists ' medical
intervention was minimal.


Reimbursement Was Inappropriate In Approximately I Of 
       Cataract Cases Based On Lack
Of Documentation

In 159 (25 percent) of 645 reviewed cataract procedures performed under MAC, payment was
inappropriate because either pre-anesthesia evaluation and/or monitoring of vital signs were not
documented as required for reimbursement. Projecting this error rate to the universe from which
claims were sampled and assuming an equal distrbution in the error rate for the full year, an
estimated $14. 0 milion in inappropriate allowed charges was made in 1988 in ten States.




Other Insurers Have More Restrictive MAC Coverage And Payment Standards

A survey of other health insurers shows that ten (22 percent) Medicare caners ' private business
health insurance plans and fIteen (68 percent) of 22 FEHB plans have more restrctive coverage
and reimbursement policies than Medicar.

A 1986 OIG study found that services provided during MAC diered substantially from those
provided during general anesthesia. Based on this finding it was recommended that HCFA
should reimburse MAC at a lower rate than general anesthesia. HCFA did not accept the OIG
recommendation and currently pays for MAC and general anesthesia at the same amount.
,',




      RECOMMENDATIONS

      HCFA should:

                     require carriers to develop and implement a claims review process to apply
                     existing MAC coverage instructions,

                     strengthen MAC guidelines by adding procedures for case- by-case coverage , as
                     currently required for anesthesia claims related to transvenous pacemaker
                     surgery and/or by providing objective criteria for MAC coverage such as the
                     use of ASA' 
 physical status categories, and

                     study the appropriateness of paying the same amountfor MAC and general
                     anesthesia in view of the fact that other insurers are more restrictive,

      The HCFA agrees with our recommendations regarding claims review and coverage but does not
      agree to study the appropriateness of the amount it pays for MAC. We continue to believe such
      a study is needed. The HCFA's comments and the OIG response appears as an appendix to the
      repon.
                             INTRODUCTION

PURPOSE

This repon reviews the adequacy and implementation of Medicare s coverage and
reimbursement instrctions for monitored anesthesia care (MAC).


BACKGROUND

Trends in Anesthesia Services

Modern medical technology has brought about vast improvements in surgical and other invasive
therapeutic and diagnostic techniques. These advances have produced shifts from traditional
incisional surgery to procedures utilizing laser technology, electrc shockwave and fiberoptic
endoscopic instruments. Arthroscopic surgery, lithotrpsy and coronar balloon angioplasty are a
few examples. New technology has also made it possible for invasive procedures to be done
more frequently on an ambulatory basis in outpatient deparments, ambulatory surgical centers
and doctors ' offices.

The wide range of available advanced operative techniques as well as advances in anesthesia
techniques have been instrumenta in producing changes in the natue of anesthesia services.
Traditionally, the most common form of surgical anesthesia involved the use of anesthetic drgs
which rendered the patient unconscious and insensible to pai. Under general anesthesia, these
drugs often suppress patients ' ability to maintain their own life functions , thus making the
anesthetist responsible for keeping the patient alive by monitoring vital physiological signs and
diagnosing and trating any deviations which may arse. Currently, many patients receive forms
of anesthesia which do not involve loss of consciousness, thus allowing the patients to maintain
their own life functions. (For ease in reading, the generic term anesthetist is used thoughout this
repon except where distinctions are necessar for the sake of accuracy. In practice, anesthesia
services are rendered by anesthesiologists, other qualifed physicians, cenified registered nurse
anesthetists (CRNA's) and anesthesiologist assistants (AA's).

The use of local anesthesia has become a prevalent choice of physicians in an increasing number
of surgical procedures. Local anesthesia is frequently admnistered by physicians performng the
procedure rather than by an anesthetist. Ophthalmologists, cardiologists, gastroenterologists and
surgeons are a few examples of specialists who often inject local anesthetics or apply topical
agents to render the ara insensible to pain. In some of these instances the local anesthesia may
be supplemented with a drg such as valium , taken orally or intravenously, to sedate the patient.
In these situations the patient is conscious and mayor may not be attended by an anesthetist.
When an anesthetist takes par in the care of the patient and cenain specified services are
rendered, the service is referred to as " monitored anesthesia care " (MAC).




                                               page 1

Medicare Coverage And Reimbursement For MAC

In April 1986 , the OIG is sued a repon entitled " Medicare Reimbursement for Anesthesia
Services " (OAI- 02- 0001O). The purpose of the study was to clarfy the nature and prevalence of
local/standby anesthesia (currently referred to as MAC) and examine and evaluate related Health
Care Financing Administration (HCFA) reimbursement policies and practices. Based on a
review of medical records for over 1 000 beneficiares who underwent either cataact surgery,
pacemaker implants or inguinal hernia repairs, the study found that the practice of substituting
MAC for general or regional anesthesia was growing. Currently, reimbursement is the same
amount for MAC and general anesthesia.

That study  s evaluation of anesthetists ' responsibilities in providing MAC , as compared to those
responsibilities when general anesthesia is administered, led OIG to conclude that the nature of
MAC services were suffciently different to warant a distinct definition of the service and that it
should be reimbursed at a lower amount. In practice , eight Medicare caners were found to be
reimbursing MAC at a lower amount and 41 caners were paying for MAC at the same level as
general anesthesia.

Differences in caner reimbursement policies, at that time , were attrbuted to a lack of national
policy and to whether they adopted the American Society of Anesthesiologists ' (ASA) guidelines
for MAC (full general anesthesia value) or the California Relative Value Scale (CRVS)
 anesthesia ground rules" (charges based on extent of services rendered).

In a final notice in the October 7, 1986 Federal Register, HCFA established special reasonable
charge payment limits for all anesthesia services furnished during cataract surgery. But, it did
not adopt the broader OIG recommendation to reduce payments for MAC irespective of the
surgical procedure performed. Rather , HCFA indicated that it would funher study its overall
policy regarding reduced reimbursement for MAC.

The HCFA did respond favorably to the OIG recommendation regarding the need to better define
the service by substituting the term " monitored anesthesia care " for local/standby anesthesia,
defining the nature of MAC, and stipulating that MAC is 
  not automatically covered. Section
83 1O. 1E of the Medicare Caners Manual (June 1987) specifies that MAC " must be reasonable
and medically necessar under the given circumstances. "                  The instrction (underline emphasis
added) states:

      Monitored anesthesia care involves the intraoperative monitoring by a physician , or by a
      qualified individual under the medical direction of a physician , of the patient s vital physio­
      logical signs, 
 in anticipation of the needfor administration of general anesthesia or of the
      development of adverse physiological patient reaction 
              to the surgical procedure. It also in­
      cludes the performance of a pre-anesthetic examination and evaluation , prescription of the
      anesthesia care required , administration of any necessar oral or parenteral medications
      (e. , atropine , demerol , valium) and provision of indicated post-operative anesthesia care.

          The fact that the physician personally furnished or medically directed the monitored
      anesthesia care does not automatically mean the monitored anesthesia care is a covered


                                                                page 2
      Part B service.   The monitored anesthesia car    service must be reasonable and medically
      necessar under the given circumstaces.

In addition , HCFA instructed caners (Section 8312. 1F) to reimburse MAC in the same manner
and amount as they pay for admnistration of general anesthesia when MAC is performed in its
entirety.

To date , MAC coverage policy has been supplemented only by a July 1988 HCFA instrction
(MCM Coverage Issue 35- 79) to caners containing coverage guidelines for MAC and general
anesthesia, associated with transvenous pacemaker surgery. It instrcts caners to provide
coverage " only if documentation of medical necessity is provided on a case- by-case basis,

Medicare Reimbursement

Medicare data for 1988 shows allowed charges for all anesthesia services of $1.1 billon.
However, as claims for genera anesthesia or MAC are not differentiated, the amount allowed for
MAC is not known. There ar , nevenheless , indications that MAC amounts are considerable.
For example, allowed charges in 1988 for anesthesia associated with catarct surgery amounted
to $144 milion , about 90% of which was probably for MAC.


SCOPE AND METHODOLOGY

To assess implementation of HCFA's coverage instrctions ,     Medicare caners were requested to
provide copies of: (1) provider information bulletis conveying anesthesia coverage limtations
for MAC and trans venous pacemaker claims, (2) related biling instrctions to providers , and (3)
claims processing procedures and instructions used in makng coverage determnations on MAC
claims. These documents were reviewed to

determne whether carers had taen the necessar steps to properly process anesthesia clais
subject to coverage restrctions.

Federa Employee Health Benefit plans and the private plans of Medicare caners were requested
to provide information on their coverage and reimbursement for MAC, as defined by HCFA.
Documents were reviewed to determne similarties and differences when compared to
Medicare s coverage and reimbursement policies.

To gai insights into how HCFA's MAC      instrction relates to actual operative events, a stratifed
random sample of 1162 Medicare beneficiar records (803 cataract procedures, 201 upper GI
procedures and 158 colonoscopies) were reviewed by board-cenified physicians under contract
to the OIG. These patients were evenly split between ASC and OPD settngs. The contractor
reviewed and reponed on such activities as pre-anesthesia examnation and evaluation,
intraoperative events and post -anesthesia care.

The sample records represented an equal number of patients from hospital outpatient
deparents (OPDs) and ambulatory surgical centers (ASCs) during the fIrst three months of
1988 in ten States (AZ , CA , FL , IL , LA , MD , NC , OH, PA , TX) with large numbers of ASCs.


                                              page 3

The sample was designed for a another OIG study which had as its purpose the evaluation of the
quality of care in ambulatory settings. The sample size was based on the number necessary to
satisfy specific testing criteria (i.e., power confidence level and detectable difference) established
for studies on medical outcome and necessity.




                                                page 4
                                                   FINDINGS

HCFA' s MAC AND PACEMAKER INSTRUCTIONS HAVE NOT BEEN
IMPLEMENTED BY MOST CARRIERS

A review of documents provided by 45 carers representing 56 payment jurisdictions , coverig
the period June 1987 through April 1989, indicates that they have not implemented the
instrctions in MCM Section 831O. 1E (June 1987) which specify that MAC " must be reasonable
and necessar under the given circumstances " and is not automaticaly covered.

           Only 15 (33 percent) caners informed the medical community of these coverage
           provisions.

           Only seven (16 percent) caners established spycial billing instrctions              requirg
           identification on the claim form that the biled anesthesia service was for MAC; 
         but
           only two of these caners use this information in adjudicating MAC claims. Such
           identification is necessar in order to apply MAC coverage limitations.

Caner implementation of pacemaker instruction (MCM Coverage Issue 35- 79) has been
somewhat better.

           Twenty-six (58 percent) of the caners have medical review procedures to determne
           coverage for pacemaker implant anesthesia claims.

           Caners with procedures to make coverage detennnations for transvenous pacemaker
           procedures var in their approaches. For example , one caner has detennned that
           anesthesia services associated with these procedures are medically necessary in all
           cases. In contrast , another requires claims for this procedure to contain the ASA
           physical status ranng which classifies patients into six levels based upon health
           condition. The physical status level is used to help make coverage detennnations.


ACTUAL SERVICES RENDERED DO NOT MEET COVERAGE GUIDELINES

The results of an OIG medical review do not suppon the coverage premise for MAC servces
contained in MCM Section 831O. IE. In this section , HCFA describes MAC services as involving
intraoperative monitoring of the patient's vital physiological signs in anticipation of the need for
administration of general anesthesia or of the development of adverse physiological patient
reaction to the surgical procedure.

The medical review determations on 1162 patients ' medical records (803 cataract extractions
and 359 upper and lower GI endoscopies) found , in those cases where MAC was biled, that the
need for anesthetists ' medical intervention was minimal.



                                                                   page 5

           Only 3 of 760 medical records for planned MAC cataract procedures (43 began under
           general anesthesia) contained notes indicating an anticipated need for general
           anesthesia and only one 
 procedure was actually convened from local to general
           anesthesia.

           There were    adverse physiologic reactions documented in any cataract procedure
                              no

           performed with MAC. Two planned procedures were cancelled preoperatively due to
           hemorrhaging caused by the injection of local anesthesia.

           Of the 359 endoscopy procedures , two colonoscopies were done under general
           anesthesia and 20 (11 upper GI and 9 colonoscopy) had associated claims for MAC.
           In its report , the medical review contractor noted that " patients undergoing
           endoscopies do not require monitored anesthesia care by anesthesiologists or CRNAs,
           although they do need monitoring by registered nurses or other personnel trained in
           monitoring and resuscitation techniques.

Additionally, during the course of the inspection , it was leared that one carer conducted a
special 1989 utilization review study of MAC services provided during cataract surgery,
including an in- depth review of four anesthesiologists who frequently biled for MAC in
cataract surgeries. Its anesthesia consultant determined medical necessity for MAC using such
factors as age of patient, anticipated duration of the procedure , serious medical problems such as
chronic obstrctive pulmonar disease , and other factors. The study found that 65 percent of the
sample reviewed lacked documented medical necessity.


REIMBURSEMENT WAS INAPPROPRIATE IN APPROXIMTELY 1 OF 4
CATARACT CASES BASED ON LACK OF DOCUMENTATION

           The medical record review showed that 44 of the 803 cataract extractions were
           performed under general anesthesia and 759 under local anesthesia. Caner claims
           payment data shows that 645 (85 percent) of the 759 procedures had associated
           anesthesia bils (299 hospital outpatient          deparent (OPDJ and 345 ambulatOry
           surgical center (ASe) bils) and among these:

                   /n   /48   cases   (23   percent), there was no documentation that pre-anesthetic
                   examinations and evaluations were performed.

                   /n   /09   cases  percent), there was no documentation of monitoring of
                                      (/7

                  patients ' vital physiological signs.

                   /n   /76   cases   (27   percent), there was no postoperative anesthesia note.




                                                        page 6
           In 159 cases (25 percent), because either pre-anesthesia evaluation and/or monitoring
           of vital signs (two key MAC services) were not documented as having been provided
           as required for reimbursement, payment was found to be inappropriate. This finding
           should not be interpreted to imply that services were not actually provided. Of these
           inappropriately paid claims , 67 (22 percent error rate) of the MAC cases were
           perfonned in OPDs and 92 (27 percent error rate) were performed in ASCs.
           Projecting these error rates to the universe from which claims were sampled , an
           estimated $3. 5 millon was inappropriately reimbursed for the three month period in
           the ten states. Assuming an equal distrbution in the error rate for the full year , this
           annualizes to $14. 0   millon in 1988.


           Failure to document the provision of one expected service was frequently
           accompanied by failure to document others; 129 medical records lacked notes that
           showed   any of the three expected services were provided.


OTHER INSURERS HAVE MORE RESTRICTIVE MAC COVERAGE AND PAYMENT
STANDARDS

A 1986 OIG study found that services provided during MAC difered substantially from those
provided durng general anesthesia. Based on this finding it was recommended that HCFA
should reimburse MAC at a lower rate than general anesthesia. HCFA did not accept the OIG
recommendation and currently pays for MAC and general anesthesia at the same amount.
However, other insurers were often found to be more restrctive than Medicare.

Medicare Carriers ' Private Business Plans

Ten (22 percent) Medicar caners ' private business health insurance plans have more restrctive
coverage and reimbursement policies than Medicare.

          Four do not provide coverage for MAC

          Four pay a lower amount for MAC than for general anesthesia

           One limits coverage to patients with a concurent " hazardous " medical condition.

           One limits coverage to five surgical procedures or any procedure requirg IV
           sedation. Coverage is also provided for patients with severe systemic diseases which
           are a constant threat to life (ASA physical status P- 4).

A caner private business plan , which also is an FEHB insurance plan , has identified over 700
procedures for which the services of an anesthetist are not customarly required. Claims for
these procedures are denied unless documentation is provided to suppon the medical necessity
for an anesthetist.



                                                page 7
Federal Employee Health Benefit Plans

Fifteen (68 percent) of 22 FEHB plans ar more strngent.

          Six do not cover MAC.

          Six cover only if IV medication is administered by an anesthesiologist.

          Three pay for distinct identified services rather than global anesthesia services.




                                              page 8

                     RECOMMENDATIONS

HCFA SHOULD REQUIRE CARRIERS TO IMPLEMENT EXISTING MAC
INSTRUCTIONS INCLUDING:



          Informing the medical community as to what is required to qualify as MAC , and that
          coverage is not automatic but must be reasonable and necessar under the given
          circumstances.

          Requirng that MAC is specifically identified on the claim form as the anesthesia
          service rendered.

          Establishing medical review procedures and policies for MAC claims.


HCFA SHOULD STRENGTHEN EXISTING MAC GUIDELINES BY:


          adding procedures, upon consultation with medical specialty societies , for
          case- by-case coverage , as currently required for anesthesia claims related to
          transvenous pacemaker surgery;
and/or

          providing objective criteria for MAC coverage such as the use of ASA' s physical
          status categories.


HCFA SHOULD STUDY THE APPROPRIATENESS OF PAYING THE SAME AMOUNT
FOR MAC     GENERAL ANESTHESIA IN VIEW OF THE FACT THAT OTHER
           AND

INSURERS ARE MORE RESTRICTIVE.




                                              page 9

                                               APPENDIX

Comments of the Health Care Financing Administration on the OIG Draft Report and the OIG
Response to the HCFA' s Comments


RECOMMENDATION I

      HCFA should require caners to implement existing MAC instructions including:

                Informing the medical community as to what             is   required to qualify as MAC, and
                that coverage          is   not automatic but must be reasonable and necessary under
                given circumstances.

                Requiring that MAC is specifically identifed on the claim form as the anesthesia
                service rendered.

                Establishing medical review procedures and policies for MAC claims.

HCFA Comment

We agree in par with this recommendation. HCFA wil bring the issue of MAC to the attention
of the caner medical directors who formulate the medical review procedures and policies for all
claims. We wil follow up on the development and implementation of more strngent review
policies in this area. As the OIG study shows , some caners currently have specific medical
review policies regarding standby anesthesia for pacemaker inserton. Such policies would
provide a useful model for other procedures.

However, we do not agree, at this tie ,
                                      that MAC care should be identied on the clai form.
HCFA wil consider such action only after the caner medical diectors have completed their
proposed course of action.

OIG Response

We are pleased to note that HCFA wil follow up on development and implementation of more
strngent review policies for MAC. -However, we do have concerns about the dificulty of im­
plementing review policies without having clais for MAC services specifically identified.
Therefore , we wil withhold funher judgment until we have been apprised of the results of
HCFA' s consultation with its medical directors.
RECOMMENDATION II

      HCFA should strngthen existing MAC guidelines by:

                 adding procedures, upon consultation with medical specialty societies,for
                 co.se- by-case coverage , as currently required for anesthesia claims related to
                 transvenous pacemaker surgery; and/or

                 providing objective criteria for MAC coverage such as the use of American
                 Society of Anesthesiologists ' physical status categories.

HCFA Comment


We agree with the intent of this recommendation and plan to explore ways to strengthen MAC
guidelines. We wil consult our CoveragelPayment.Technical Advisory Group about requiring
case- by-case determinations for cataact extractions and endoscopies , as well as for other
procedures. It would be helpful if OIG would supply us with the list of 700 procedures that a
private plan identified as not customarly requirng the services of an anesthetist , and for which
claims were denied unless medical necessity was documented.

OIG Response

We are pleased to provide HCFA with a copy of the requested list of procedures identified by a
private plan.





RECOMMENDATION il


      HCFA should study the appropriateness of paying the same amount for MAC and general
      anesthesia in view of the fact that other insurers are more restrctive.

HCFA Comment


We do nOt concur with this recommendation. We believe that it is not supported by the findings
in this repon. The repon compars the MAC policies of Medcare to the policies of the Federal
Employee Health Benefits Plans (FHBPs) and the Medicare Caners ' Prvate Business Plans
(MCPBPs) and concludes that the other plans have more restrctive coverage and reimbursement
policies. However, the comparson would only be vald if the FEHBPs and MCPBPs define
MAC in the same way as Medicare. Although the presentation in the repon suggests that all
FEHBPs and at least ten MCPBPs define MAC identically, there is no evidence in the repon to
support this. In addition we have reservations about adoptig a recommendation that is based
solely on the payment policies of Other plans. We believe it is more imponant to establish that
MAC is, indeed, a less resource- intensive surgical procedure than general anesthesia.
It woul!i also have made comparsons more meaningful to know whether these other plans
lowered catarct anesthesia base units as Medicare did in Januar 1987. If these other plans
recognize tie units only, but have a higher conversion factor and a higher base unit for cataact
anesthesia than Medicare , this would likely result in a higher payment allowance than Medicare
even though it appears that these plans have a more restrctive policy. We suggest that OIG
address these concerns and also provide additional detals on how these plans generally ensure
lower or no payment for monitored anesthesia care. Specifically, the study should cover what
special codes , modifiers or other administrative processes these plans use to allow them to pay at
a lower level.

OIG     Response

The HCFA has voiced several concerns about adopting this recommendation. We believe,
nevertheless, that there is sufficient evidence and information available to suppon it. The
evidence and information includes , but is not limited to , our comparative analysis of other
insurers policies ,         HCFA's previous position to differentiate payment for MAC; and , lastly,
statutory provisions requiring HCFA to develop a physician fee schedule based on resource
costs.

The HCFA's first concern with accepting our finding is that the comparson of private plans with
Medicare would only be valid if the private plans define MAC in the same way as Medicare. 


response, we wish to note that our methodology in soliciting responses from FEHBPs and
MCPBPs was designed to assure valid comparsons based on identical definitions.                                  In gathering
the information from FEHBPs we provided them with HCFA' s definition to assure common
understanding of the definition of MAC. Similarly, we aranged for Medicare caner staff who
are knowledgeable of HCFA's definition to obtain the related coverage and reimbursement
information from their private business plans.                              In those instances where responses were not
definitive, we held discussions with respondents to assure that the identical definition was used.

The HCFA also expressed reservations about accepting a recommendation based solely on the
payment policies of other plans. We had only recommended conducting a study, not actually
changing policy unless the study indicated the appropriateness of the need for a change. More
imponantly, in this regard, we wish to point out that in HCFA' s response to our 1986 inspection
repon (OAI- 85- 01O), HCFA concurred with our recommendations that general anesthesia and
MAC would be reimbursed at different rates. The HCFA indicated that it was considering a
proposed regulatory change that would accomplish the intent of the OIG recommendations.
Additionally, HCFA had committed itself to studying this payment issue in the October 7, 1986
issue of the Federal Register in response to our April 1986 OIG repon.

The HCFA believes it is imponant to establish that MAC is , indeed , a less intensive-resource
procedure than general anesthesia. We assume that this position is based on the provisions of
OBRA 89 which require DHHS to develop a fee schedule for physician services based on
resource costs. As we understand that HCFA has adopted the ASA Uniform Relative Value
Guide which does not distinguish between resource costs for MAC and general anesthesia , we
are uncertain of HCFA' s intent.
With respect to HCFA's comments regarding cataract anesthesia base units and how other plans
administer their coverage and payment policies , we wil provide HCFA with our list of the
MCPBPs and FEHBPs with more restrctive coverage and payment standards.


HCFA' S General Comments

       Scope

                 The stated purpose of this report was to review the adequacy and
                 implementations of Medicare s coverage and reimbursement instructions for
                 MAC. However, the report only covered MAC associated with cataract surgery
                 and endoscopic procedures. Of the medical records reviewed 69 percent were
                                                                     31
                 associated with cataract anesthesia and the remaining  percent were
                 associated with anesthesia related to endoscopic procedures. Further, only 6
                 percent of the endoscopic procedures involved MAC. . We recommend that GIG
                 either retitle and rewrite the report to indicate that this report         is   a study of MAC
                 for cataract services or expand the report to cover all other procedures using
                 MAC.

OIG   Response

                 As stated in the Scope And Methodology section of this report, our inclusion of
                 medical review findings of cataract procedures, Upper  GI procedures and
                 colonoscopies was designed to gain insights into actual operative events in
                 assessing the adequacy of HCF A' s coverage instruction for MAC. The choice
                 of these procedures does not mean that our study of the adequacy and
                 implementation of Medicare coverage and reimbursement for MAC was
                 limited to these procedures.

                 HCF A correctly notes that only a small percentage of the endoscopic
                 procedures performed involved MAC. We have revised the report to indicate
                 that 20 of the 359 endoscopy procedures had associated claims for anesthesia.
                 Discussions with several gastroenterologists revealed that they provide , or
                 direct the provision of, MAC for almost all these procedures. In these instances
                 MAC services of the physician endoscopist, registered nurse or other personnel
                 trained in monitoring and resuscitation techniques are not usually biled by
                 physicians as a separate service.

       Documentation

                 The report indicates that the payment was inappropriate in approximately                  in 4
                 cataract cases based on lack of documentation. However , the report should
                 make it clear that this finding does not necessarily imply that anesthesia
                 providers did not furnish claimed MAC services. Rather , the absence of
                 documentation ma reflect afailure to docw:ent services actually provided or a
                 failure to include this documentation with the medical record reviewed by the
                 O/G     contractor. This lack of precision in distinguishing the reasonfor the
                 absence of documentation also calls into question the accuracy of O/G' 


                 projection of$/4  milion in inappropriate payment for MAC, such payments
                 cannot be directly translated into projected future savings; a more stringent
                 review process for MAC might rather improve the anesthesia documentation,

O/G   Response

                 We have revised the report to assure that the finding does not imply that
                 services were not actually rendered, However , lack of documentation is
                 suffcient cause to examine the case further.

      Detail

                 We would recommend that the report include more detail on such items as the
                 number of outpatient departments (OPDs) and ambulatory surgical centers
                 (ASCs) that were sampled and whether inadequate documentation was a
                 problem for certain OPDs/ASCs , or was it representative across all
                 OPDs/ASCs. It would also be helpful to include the method the medical record
                 contractor used to identif anesthesia activities. These items could be
                 incorporated into the appendix or incorporated into the body of the report itself

OIG   Response

                 We are happy to make our work papers containing information on OPDs, ASCs
                 and contractor methodology available to HCFA.




                                                                  A- 5

